Washington State Employees Credit Union
P.O. Box WSECU
Olympia, WA 98507
(800) 562-0999

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card are
March 18, 2020
accurate as of ___________________.
You can contact us toll free at (800) 562-0999 or P.O. Box WSECU, Olympia, WA
98507 to inquire if any changes occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
WSECU PLATINUM
Annual Percentage Rate
(APR) for Purchases &
Cash Advances

WSECU CASH
BACK

WSECU LOW RATE

_______%10.75
_______%
22.25

_______%_______%12.75
6.25
_______%
_______%
24.25
17.75

depending on your credit
history. This APR will vary
with the market based on
the Prime Rate*.

depending on your
credit history. This
APR will vary with
the market based
on the Prime Rate*.

depending on your credit
history. This APR will vary
with the market based on
the Prime Rate*.

WSECU CREATE***

_______%
15.25
This APR will vary
with the market
based on the Prime
Rate*.

0% Introductory APR on
______%
0% Introductory APR on
______%12.75
15.25
This APR will vary
balance transfers for 6
balance transfers for 6
______%
24.25
months if the transfer is
depending on your months if the transfer is
with the market
made within 60 days of
credit history. This made within 60 days of
based on the Prime
account opening. After that, APR will vary with account opening. After that, Rate*.
your Standard APR will be the market based
your Standard APR will be
on the Prime Rate*. ______%______%______%
______%
10.75
22.25
6.25
17.75
depending on your credit
depending on your credit
history. This APR will vary
history. This APR will vary
with the market based on
with the market based on
the Prime Rate*.
the Prime Rate*.
Your due date is at least 21 days after we mail your billing statement. We will not charge you
interest on purchases or balance transfers if you pay your entire new purchase or balance
transfer balance by the due date each month. We will begin charging interest on cash advances
on the date the cash advance is posted to your account.

APR for Balance
Transfers**

Paying Interest

Minimum Interest Charge

None

For Credit Card Tips from To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
the Consumer Financial
http://www.consumerfinance.gov/learnmore
Protection Bureau
FEES:
Fees to Open or Maintain
your Account
- Annual Fee:
- Application Fee:

None
None

Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:

None
2% of the amount advanced up to $25.00
None

Penalty Fees
- Over-the-Credit Limit:
- Returned Payment:
- Late Payment:

None
None
Applies to WSECU Create only: First time payment is late: $10.00 or your minimum payment
required, whichever is less. Second time payment is late: $20.00 or your minimum payment
required, whichever is less. All subsequent late payments: $25.00 or your minimum payment
required, whichever is less.
Applies to all other cards: $25.00 or your minimum payment required, whichever is less.
Balances of $25.00 or less must be paid in full.
SEE NEXT PAGE for more important information about this account

9009 LASER ML FPDF FI11575 Rev 2-2020

page 1 of 2

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Loss of Introductory Rate: We may end your Introductory Rate and apply the Standard APR disclosed above if you make a
late payment.
*Variable Rates: The Annual Percentage Rate may increase or decrease if the highest rate of interest identified as the 'Prime
Rate' in the 'Money Rates' column of the Wall Street Journal increases or decreases. The Annual Percentage Rate will be equal
3.00
21.00
to the Prime Rate plus a margin of: _______%-_______%
depending on your credit history. The interest rate can change
monthly on the 18th day of the month following a change in the Prime Rate. The Annual Percentage Rate will never be more
than: 29.99%. Any increase will take the form of more payments of the same amount.
**Introductory Rate is available only for balance transfers made within 60 days of account opening. Introductory Rate
does not apply to balances transferred from other WSECU credit cards or loans.
***On-Time Payment Discount (Applies to WSECU Create only): You will receive a 0.25% discount on the APRs disclosed
on page 1 each time you make a series of six consecutive qualifying payments on or before the payment due date in a billing
cycle, up to a maximum total of a 2% discount. A “qualifying payment” is one you have made on or before the payment due date
in a billing cycle in which there was transaction activity and a payment is due. For example, if you make six consecutive on-time
payments in January through June, you will receive the discount in the amount disclosed in this paragraph. Then, if you make
six consecutive on-time payments in July through December, you will receive another discount in the amount disclosed in the
paragraph. If you make a late payment, the number of accrued qualifying payments resets to zero and you must, from that
point, make six consecutive qualifying payments to receive a discount. You will not lose any discounts in effect if you make a
late payment.
Skip Payment (Applies to all cards except WSECU Create): If we make a skip payment option available, you may skip
making your payment(s) for certain month(s). If you choose this option, interest will continue to accrue, but no late payment
charges will be imposed during the skip period. All credit terms applicable immediately prior to the skip period will again apply
once the skip period has expired. A Skip a Pay fee of $15.00 will apply.
Cash Back (Applies to WSECU Cash Back Signature only): 1% cash back will be paid on purchases made on your card. 1%
cash back will not be earned on cash advances from an ATM, convenience checks, finance charges, or any fees assessed on
your account, including foreign transaction fees. One-half percent (.50%) cash back will be paid on all payments to your
account. Cash back earned on eligible transactions during a billing cycle will be applied as a credit to your account on the last
day of the same billing cycle in which the transactions post to your account. Billing cycles typically end on the seventeenth
(17th) of each month.

9009 LASER ML FPDF FI11575 Rev 2-2020

page 2 of 2

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

